No. 20-828
IN THE SUPREME COURT OF THE UNITED STATES
_________________
FEDERAL BUREAU OF INVESTIGATION, ET AL.,
PETITIONERS
v.
YASSIR FAZAGA, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE PETITIONERS, via email and first-class mail, postage prepaid, this 30th
day of July, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 12,650
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
July 30, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
July 30, 2021

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-0828
FEDERAL BUREAU OF INVESTIGATION, ET AL.
YASSIR FAZAGA, ET AL.

AHILAN THEVANESAN ARULANANTHAM
ACLU FOUNDATION OF SOUTHERN
CALIFORNIA
385 CHARLES YOUNG DRIVE EAST
LOS ANGELES , CA 90095
301-825-1029
AARULANANTHAM@LAW.UCLA.EDU
PETER BIBRING
ACLU OF SOUTHERN CALIFORNIA
1313 W. 8TH STREET
LOS ANGELES, CA 90017
213-977-5295
PBIBRING@ACLU-SC.ORG
CATHERINE M.A. CARROLL
WILMER CUTLER PICKERING HALE & DORR
LLP
1875 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20006
202-663-6000
CATHERINE.CARROLL@WILMERHALE.COM
ALEXANDER COTE
WINSTON & STRAWN LP
333 S. GRAND AVENUE,
38TH FL
LOS ANGELES, CA 90071-1543
213-613-1993
ACOTE@WINSTON.COM

KATIE MORAN
WILMER CUTLER PICKERING HALE AND
DORR LLP
350 S GRAND AVENUE
SUITE 2400
LOS ANGELES,, CA 90017
213-443-5300
AMR SHABAIK
CAIR-LOS ANGELES
2180 W. CRESCENT AVENUE
SUIT F.
ANAHEIM, CA 92801
DAN STORMER
HADSELL STORMER KEENY RICHARDSON &
RENICK, LLP
128 NORTH FAIR OAKS AVE.
SUITE 204
PASADENA , CA 91103
626-585-9600
DSTORMER@HADSELLSTORMER.COM

